         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Quick Reaction Report




       City of Elizabeth, New Jersey -
       Excess Clean Water State
       Revolving Funds Claimed
       Report No. 08-2-0062

       January 23, 2008
Report Contributors:	            Robert Adachi
                                 Janet Lister
                                 Lela Wong
                                 Janet Kasper




Abbreviations

CFR          Code of Federal Regulations
CWSRF        Clean Water State Revolving Fund
EPA          U.S. Environmental Protection Agency
Grantee      City of Elizabeth, New Jersey
OIG          Office of Inspector General
OMB          Office of Management and Budget
SAAP         Special Appropriation Act Project
                        U.S. Environmental Protection Agency                                              08-2-0062 

                                                                                                    January 23, 2008

                        Office of Inspector General


                        At a Glance
                                                                           Catalyst for Improving the Environment

Why We Did This Review
                                   City of Elizabeth, New Jersey - Excess Clean
The U.S. Environmental             Water State Revolving Funds Claimed
Protection Agency (EPA)
Office of Inspector General         What We Found
conducted a review of
earmarked grants known as          The grantee claimed and was reimbursed under its Clean Water State Revolving
Special Appropriation Act          Fund loan $335,232 in excess of actual costs incurred, contrary to the
Projects issued to State, local,   requirements of Title 40, Code of Federal Regulations, Section 35.3155 (d)(2).
and tribal governments. The        The grantee initially paid for all project construction costs using its internal
City of Elizabeth, New Jersey      service funds, and was reimbursed with draws from either the State loans or from
(grantee) was selected for         the EPA grant. The grantee did not associate all reimbursements with contract
review.                            invoice payments. The over reimbursement was associated with a State of New
                                   Jersey loan that was 50-percent funded from the Clean Water State Revolving
Background                         Fund. These funds could have been made available for use by other potential loan
                                   recipients.
The grantee received EPA
Special Appropriation Act
Project grant number                What We Recommend
XP98241301, which provided
Federal assistance of              We recommend that the Regional Administrator, EPA Region 2, coordinate with
$1,451,800. The grantee was        the State to ensure that the grantee immediately repays $335,232 drawn in excess
responsible for matching, at a     of actual costs incurred.
minimum, 45 percent of the
eligible project costs. The
grantee fulfilled its matching
requirement with loans from
the New Jersey Department of
Environmental Protection.
The loans were funded
through the Clean Water State
Revolving Fund.

For further information,
contact our Office of
Congressional and Public
Liaison at (202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2008/
20080123-08-2-0062.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                         January 23, 2008

MEMORANDUM

SUBJECT:	 City of Elizabeth, New Jersey –
          Excess Clean Water State Revolving Funds Claimed
          Report No. 08-2-0062


FROM:          Melissa M. Heist
               Assistant Inspector General for Audit

TO:	           Alan J. Steinberg
               Regional Administrator
               EPA Region 2


This report contains a time-critical issue the Office of Inspector General (OIG) identified and
recommends recovery of Federal funds drawn down by the recipient. This report represents the
opinion of the OIG and does not necessarily represent the final position of the U.S.
Environmental Protection Agency (EPA). EPA managers will make final determinations on
matters in this report.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $38,479.

Action Required

In accordance with EPA Manual 2750, Chapter 3, Section 6(f), you are required to provide us
your proposed management decision for resolution of the finding contained in this report before
any formal resolution can be completed with the recipient. Your proposed decision is due in
120 days, or on May 21, 2008. To expedite the resolution process, please email an electronic
version of your proposed management decision to kasper.janet@epa.gov.

We have no objections to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig. If you have any questions, please contact Janet Kasper,
Director, Assistance Agreement Audits, at (312) 886-3059 or at the email address above.
Purpose
The Office of Inspector General is reviewing Special Appropriation Act Project (SAAP) grants
to identify issues warranting further analysis. This includes reviewing the total project costs
incurred by selected SAAP grant recipients. During our review of the SAAP grant awarded to
the City of Elizabeth, New Jersey (grantee), we identified the following condition that we believe
requires immediate attention. The grantee claimed and was reimbursed $335,232 in excess of
actual costs incurred from a Clean Water State Revolving Fund (CWSRF) loan that was used to
meet matching requirements of the grant.

Background
EPA Region 2 awarded grant number XP98241301 (grant) to the grantee on September 17, 2001.
The purpose of the grant was to provide Federal assistance of $1,451,800 for a combined sewer
overflow abatement project. The scope of the grant included constructing 26 in-line netting
facilities and 5 bar screen facilities, and installing about 1,310 linear feet of sanitary sewers and
420 linear feet of storm sewers, to separate combined sewer flow. This project would
significantly reduce the amount of solids, floatables, and untreated wastewater being discharged
to the Elizabeth River, Arthur Kill waterbody, and Newark Bay. EPA’s contribution to the
project was 55 percent of approved costs not to exceed $1,451,800. The grantee was responsible
for matching, at a minimum, 45 percent of the eligible project costs or $1,187,836. The grant’s
budget period was from October 1, 2001, to June 30, 2003.

The grantee fulfilled its matching requirement through two loans from the New Jersey
Department of Environmental Protection. These loans were funded 50 percent from CWSRF
funds and 50 percent from New Jersey Environmental Infrastructure Trust funds.

Scope and Methodology
We performed our audit in accordance with generally accepted government auditing standards
issued by the Comptroller General of the United States, with the exception of gaining a complete
understanding of internal controls as required under Section 7.11 and information control
systems as required under Section 7.59. We did not obtain a complete understanding of the
internal control system since the limited nature of our review focused on the source documents
that support costs claimed under the grants. We also did not test the recipient’s grant drawdown
process or process for entering information into its accounting system. Instead, we relied upon
the grantee’s schedule of revenues and project costs. The schedule was reconciled to the
grantee’s source documents but was not part of the official accounting system. We did not
obtain an understanding of information control systems since the review of general and
application controls was not relevant to the assignment objectives. We conducted our field work
between June 25, 2007, and October 11, 2007.




                                                 1

We made site visits to the grantee and performed the following steps:

   •	 Conducted interviews of grantee and State of New Jersey personnel;
   •	 Obtained and analyzed the grantee’s electronic and hardcopy accounting files, source
      documents, bank statements, cancelled checks, and invoices; and
   •	 Obtained and analyzed EPA grant drawdowns, CWSRF and Environmental Infrastructure
      Trust loan draws, and other related financial data.

Finding
The grantee claimed and was reimbursed under its CWSRF loan $335,232 in excess of actual
costs incurred, contrary to the requirements of Title 40, Code of Federal Regulations (CFR),
Section 35.3155 (d)(2). Table 1 provides the details on construction costs incurred and the
reimbursements from the various funding sources:

       Table 1: Schedule of Construction Costs and Reimbursements
                                                                                              Amount
       Construction Costs Incurred                                                          $10,151,353
       Construction Costs Reimbursed
             EPA Grant XP98241301                                                            $1,451,800
             State of New Jersey Loan – S-340-942-02                                          1,578,435
             State of New Jersey Loan – S-340-942-03                                          7,456,350
         Total Reimbursements for Construction Costs                                        $10,486,585
       Excess Reimbursements Over Construction Costs                                          $335,232
       Source: Contractor invoices and grant and loan draws from City of Elizabeth files.


Under Title 40 CFR 35.3155 (d)(2), the assistance recipient must first incur a cost to draw cash,
and the draws will be available only up to the amount of payments made. Since the grantee only
incurred costs and made payments of $10,151,353, the grantee was not entitled to the additional
$335,232 drawn under the loan.

The grantee initially paid for all project construction costs using its internal funds and was
reimbursed with draws from either the State loans or the EPA grant. The grantee did not
associate all reimbursements with contractor invoice payments. For this reason, reimbursements
for construction costs were based on the “first in first out” accounting method that applies the
reimbursements first to the earliest funding sources received by the grantee for construction
costs. The last funding source the grantee received was State loan number S-340-942-03, which
was 50-percent funded from the CWSRF. The grantee received $335,232 from loan number
S-340-942-03 in excess of the construction costs incurred. The State could have made this
amount available to other loan recipients in need of funding. As a result, we have questioned the
$335,232 received in excess of the construction costs incurred.

Recommendation
   1.	 We recommend that the Regional Administrator, EPA Region 2, coordinate with the
       State of New Jersey to ensure that the City of Elizabeth immediately repays $335,232
       drawn in excess of actual costs incurred.


                                                        2

Grantee and Region 2 Comments
On November 27, 2007, an exit conference was held with the grantee, Region 2, and State of
New Jersey officials. The grantee concurs with the audit finding and will work with the New
Jersey Department of Environmental Protection to identify other allowable costs to offset the
questioned costs in the audit report.

Office of Inspector General’s Response

Our position remains unchanged since the grantee concurred with the finding.




                                               3

                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                              Planned
Rec.        Page                                                                                             Completion   Claimed    Agreed To
No.          No.                        Subject                         Status1        Action Official          Date      Amount      Amount

 1            2    Coordinate with the State of New Jersey to ensure      O        Regional Administrator,   05/21/2008     $335
                   that the City of Elizabeth immediately repays                       EPA Region 2
                   $335,232 drawn in excess of actual costs incurred.




     1   O = recommendation is open with agreed-to corrective actions pending.

         C = recommendation is closed with all agreed-to actions completed.

         U = recommendation is undecided with resolution efforts in progress.





                                                                              4

                                                                               Appendix A

                                    Distribution

Regional Administrator, Region 2
Director, Office of Wastewater Management, Office of Water
Director, Office of Wastewater Management - Municipal Support Division, Office of Water
Director, Office of Grants and Debarment
Director, Grants and Interagency Agreements Management Division
Agency Followup Official (the CFO)
Agency Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Region 2 Audit Followup Coordinator
Region 2 Public Affairs Office
Deputy Inspector General




                                             5

